FDIC’s Approach to Data Sensitivity for Legacy Applications

(Report No. 04-011, February 27, 2004)

Summary

This report presents the results of our evaluation of the FDIC’s approach to identifying and
protecting sensitive data in legacy applications.

Generally, we concluded that the FDIC’s approach to identifying and protecting sensitive data in
legacy applications was consistent with applicable federal standards for categorizing information
and information systems. Further, the FDIC has actions underway to more closely align the existing
policy and procedure used for determining the sensitivity of data in legacy applications with the
applicable federal standards.

Recommendations

The report contained no recommendations.

Management Response

The FDIC had no comments on the report.


This report addresses issues associated with information security. Accordingly, we have not
made, nor do we intend to make, public release of the specific contents of the report.
